     




                                                            
                                                            
                                                            


                               
                               
        F            T             C               
    S                     R               C             
        O           I                     G        
                               
 
            April 1, 2012— September 30, 2012 
                     REPORT NO. 48 
                                                            
                                                              


                                   
 




 

 
In 1938, Michael Lantz won the competition to design two sculptures for the apex
building, home of the Federal Trade Commission in Washington, D.C. The widely
publicized “Apex Competition” was the largest American sculpture competition ever
held, receiving almost five hundred models from more than two hundred artists.

Lantz submitted small models of his designs, each showing a heroic figure straining
to control a powerful horse. The final, seventeen foot-long statues were completed
in 1942 and installed outside the eastern entrance of the Federal Trade Commission
building, where they can be seen today.

C OVER : The cover is a close-up of a 19th Century clipper ship in full sail and is one
of six relief panels that adorn the gates over the exterior FTC building doorways.
The six relief panels show various means of trade in the late 1930s.

More information on the National Register of Historic Places is available on the
GSA Historic Buildings Program website http://www.gsa.gov/portal/
category/21010.




                                            
 




The Federal Trade Commission (FTC) is an independent agency of the United
States government established in 1914 by the Federal Trade Commission Act (15
U.S.C. §41-58, as amended). The FTC has two critical goals: protecting consumers
and maintaining competition. The FTC’s mission is to prevent business practices
that are anticompetitive or deceptive or unfair to consumers; to enhance informed
consumer choices and public understanding of the competitive process; and to
accomplish these missions without unduly burdening legitimate business activity.

The FTC’s mission is carried out by three bureaus: the Bureau of Consumer
Protection, the Bureau of Competition, and the Bureau of Economics. Work is
aided by offices including the Office of the General Counsel, the Office of
Inspector General, the Office of International Affairs, the Office of the Executive
Director, and seven regional offices. The FTC is headed by a commission composed
of five commissioners, nominated by the President and confirmed by the Senate,
each serving a seven-year term.

The FTC seeks to ensure that the nation’s markets are competitive, efficient and
free from undue restrictions. The FTC also seeks to improve the operations of the
marketplace by ending unfair and deceptive practices with emphasis on those
practices that might unreasonably restrict or inhibit the free exercise of informed
choice by consumers. The FTC relies on economic analysis to support its law
enforcement efforts and to contribute to the economic policy deliberations of
Congress, the Executive Branch and the public.

Many of the FTC’s resources can be accessed through its website www.ftc.gov.




T HIS ISSUE OF OUR S EMIANNUAL REPORT TO C ONGRESS FEATURES DECORATIVE
ELEMENTS FROM THE F EDERAL T RADE C OMMISSION BUILDING ON 600 P ENNSYLVANIA
A VE . N.W. W ASHINGTON D.C.


                                          
 




A BOVE: THIS RELIEF ENTITLED “A GRICULTURE “   WAS CREATED BY ARTIST
C ONCETTA S CARAVAGLIONE IN 1938.
I T IS ONE OF FOUR LIMESTONE RELIEFS ABOVE THE ENTRANCE DOORS OF THE
F EDERAL T RADE COMMISSION BUILDING ON 600 P ENNSYLVANIA AVE . NW,
W ASHINGTON DC.




                                       
TABLE OF CONTENTS


A MESSAGE FROM THE INSPECTOR GENERAL                                     1

INTRODUCTION AND DEFINITIONS                                             2

AUDITS AND RELATED ACTIVITIES                                            4
      Completed Audits and Reports                                       4
      Audit Resolution and Corrective Actions                            4
      Audit Activities Planned or In-Progress                            5
      Other Potential Reviews                                            5

INVESTIGATIVE ACTIVITIES                                                 6
      Investigative Summary                                              6
      Investigations Closed                                              6
      Matters Referred for Prosecution                                   7

OTHER ACTIVITIES                                                         7
     Liaison with Other Agencies                                         7
     Activities Within the Inspector General Community                   7
     Significant Management Decisions                                    8
     Access to Information                                               8
     Review of Legislation                                               8
     Peer Review Activities                                              9

TABLE 1: REPORTS WITH   RECOMMENDATIONS ON WHICH CORRECTIVE ACTION HAS
NOT BEEN COMPLETED                                                       10

TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS          13

TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE                                               14

TABLE 4: SUMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS             15

CONTACTING THE OFFICE OF INSPECTOR GENERAL                               16
  

 
 




                                             UNITED STATES OF AMERICA    
                                      FEDERAL TRADE COMMISSION 
                                              WASHINGTON, D.C. 20580

    O¥¥® Ê¥ IÄÝÖãÊÙ GÄÙ½

                                                        October 31, 2012




    A MÝÝ¦ FÙÊÃ ã« IÄÝÖãÊÙ GÄÙ½  
     
              On behalf of the Federal Trade Commission (FTC) Office of Inspector General (OIG),
        I am pleased to present our Semiannual Report to Congress for the period ended September
        30, 2012.

             During this semiannual period, a peer review of our audit organization was completed.
        We received a clean opinion on the quality assurance system our audit organization uses to
        produce its reports. In addition, we provided the FTC agency head a summary of our
        perspective on the most significant management and performance challenges facing the
        organization for inclusion in the FTC’s FY 2012 Performance and Accountability Report.
        Our reports can be found at www.ftc.gov/oig.

              The OIG processed 60 consumer inquiries and allegations of possible wrongdoing. We
        opened four new investigations and closed three investigations. We closed 10 complaints
        during the current reporting period and referred 31 complaints to appropriate FTC program
        offices and one to another federal agency.

              As in the past, FTC management has been responsive in working with the OIG to
        resolve all proposed recommendations. I appreciate management’s support and look forward
        to working with management in our ongoing efforts to promote economy and efficiency in
        agency programs.




                                                        Scott E. Wilson
                                                        Inspector General




                                        SEMIANNUAL REPORT TO CONGRESS ‐ 1
 




    INTRODUCTION AND DEFINITIONS



    THE    MISSION OF THE       OFFICE    OF   INSPECTOR GENERAL        IS TO PROMOTE
    ECONOMY, EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND PREVENTING
    WASTE, FRAUD, AND ABUSE.




    In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the
    Office of Inspector General (OIG) was established in 1989 as an independent and
    objective organization within the FTC.

    Under the Inspector General Act, the OIG is responsible for conducting audits and
    investigations relating to the programs and operations of the FTC. Audits are conducted
    for the purpose of finding and preventing fraud, waste and abuse and to promote
    economy, efficiency and effectiveness within the agency. OIG investigations seek out
    facts related to allegations of wrongdoing on the part of FTC employees and individuals
    or entities having contracts with or obtaining benefits from the agency.

    Individuals who wish to file a complaint about the business practices of a particular
    company or entity, or allegations of identity theft, deceptive advertising practices or
    consumer fraud should file a complaint with the FTC Bureau of Consumer Protection.

    Complaints to the OIG from the public or from an FTC employee can be made
    anonymously. The identity of an FTC employee who reports waste or wrongdoing to
    the OIG will be protected from disclosure consistent with provisions of the Inspector
    General Act. In addition, the Inspector General Act and the Whistleblower Protection
    Act prohibit reprisals against employees for complaining to or cooperating with the
    OIG.

    The OIG is required by law to prepare a semiannual report summarizing the activities
    of the Office during the immediately preceding six-month period. The report is sent to
    the FTC Chairman, the President of the Senate, the Speaker of the House and FTC’s
    appropriating and authorizing committees. This dual reporting requirement facilitates
    and ensures the independence of the Office. The OIG has a budget of $1,037,100 for
    fiscal year 2012.




                              2 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    WE PERFORM THE FOLLOWING SERVICES:


    ATTESTATIONS involve examining, reviewing, or applying agreed-upon procedures on a
     subject matter, or an assertion about a subject matter. Attestations can have a broad
     range of financial or nonfinancial objectives such as the FTC’s compliance with specific
     laws and regulations, validation of performance against performance measures or
     reasonableness of cost.

    PERFORMANCE AUDITS address the efficiency, effectiveness, and economy of the FTC’s
     programs, activities, and functions; provide information to responsible parties to
     improve public accountability; facilitate oversight and decision making; and initiate
     corrective actions as needed.

    FINANCIAL AUDITS provide an independent assessment of whether financial statements
     are presented fairly in accordance with generally accepted accounting principles.
     Reporting on financial audits in accordance with Government Auditing Standards also
     includes reports on internal control, and compliance with provisions of laws, regulations,
     and contracts as they relate to financial transactions, systems and processes.

    INVESTIGATIONS are conducted based on alleged or suspected fraud, waste, abuse or
     gross mismanagement, employee and contractor misconduct, and criminal and civil
     violations of law that have an impact on the FTC’s programs and operations. The OIG
     refers matters to the U.S. Department of Justice whenever the OIG has reasonable
     grounds to believe there has been a violation of federal criminal law. The OIG also
     identifies fraud indicators and recommends measures to management to improve the
     agency’s ability to protect itself against fraud and other wrongdoing.




                                  SEMIANNUAL REPORT TO CONGRESS ‐ 3
 




                                                      We selected two acquisitions to evaluate the
                                                      current status of FTC oversight of its IT
                                                      contractors. Based on our review, we
                                                      recommended accelerating improvements to
                                                      contractor oversight. In its response, the
                                                      Office of the Chief Information Officer
                                                      (OCIO) committed to work with the
                                                      Contracting Officers’ Representatives (CORs)
                                                      to establish baselines and metrics for current
                                                      and future contracts. We also recommended
                                                      improving the FTC’s capability to define
                                                      activities that the FTC intends to award on a
                                                      fixed price basis with associated performance
                                                      criteria, and incorporating specific guidance
          AUDITS AND RELATED
                                                      for monitoring contractor performance.
              ACTIVITIES
                                                      The FTC subsequently modified and awarded
    Completed Audits and Reports                      the two contracts evaluated in this report. We
                                                      will follow-up on the OCIO’s actions as part
    During this period, an external peer review of    of the FY 2012 FISMA evaluation.
    the quality of our audit practices and
    procedures was completed. Our peer review
    activity is described in the Appendix (page 9),   Audit Resolution and Corrective Actions
    as required by Section 989C of the Dodd-
    Frank Act.                                        During this semiannual reporting period, the
                                                      FTC offices and bureaus continued to make
    Action Required to Improve Information            progress in implementing previously made
    Technology Contractor Oversight                   open recommendations, while ensuring that
                                                      the most recent recommendations were fully
    As an extension of the 2011 Federal               implemented. Based on the appropriate
    Information Security Management Act               evidence and documentation management
    (FISMA) assessment, we asked our FISMA            provided to the OIG to support its
    contractor, Allied Technology Group Inc. to       implementation of the OIG’s
    evaluate the adequacy of Contractor               recommendations, the OIG closed five
    Oversight. We focused on Contractor               recommendations related to five different
    Oversight because: the Office of Management       OIG reports during this semiannual reporting
    and Budget (OMB) identified Contractor            period.
    Oversight as an area of concern throughout
    government; Contractor Oversight has been         Table 1 (page 10) shows all recommendations
    identified as a FISMA control area requiring      open 180 days or more on which corrective
    FTC improvement since FY 2009; and                actions are still in progress.
    Contractor Oversight deficiencies were
    significant contributing factors to the
    problems encountered in the FY 2009
    initiative to modernize the FTC IT
    infrastructure.



                                       4 ‐ SEMIANNUAL REPORT TO CONGRESS
 


     

        Audit Activities Planned or In-Progress         Other Potential Reviews

        The OIG will complete two mandatory             During the upcoming year we will also
        reviews during the next reporting period that   conduct research on the following program
        will assess the FTC’s financial oversight and   functions to determine the need for further
        information security.                           audit work:

        Audit of the FTC Financial Statements              Travel policies and practices
        for FY 2012 — A financial statement audit is
        required annually under the Accountability of      Inventory controls over accountable
        Tax Dollars Act of 2002. We contract with            information technology equipment
        an independent public accountant to
        perform this work. The OIG serves as the           Acquisition processes      and   contract
        COR and provides oversight on the contract.          management
        The purpose of the audit is to express an
        opinion on the financial statements of the      Inspection and Evaluation Activities
        FTC for the fiscal year ending September 30,    Planned or In-Progress
        2012. The audit will also test the internal
        controls over financial reporting and assess    The FTC receives and processes over two
        compliance with selected laws and               million consumer complaints per year. As a
        regulations. The audited financial statements   result, the agency is constantly challenged to
        are included in the financial section of the    direct its limited resources in a manner that
        agency’s Performance and Accountability         will maximize its desired outcome to protect
        Report issued in November 2012.                 consumers. A complex marketplace, ever-
                                                        evolving fraud schemes, declining budgets,
        Review of FTC FISMA Implementation              and increasing workloads require continuous
        for FY 2012                                     reassessment of management practices in
                                                        achieving that objective.
        FISMA requires an annual evaluation of each
        agency’s information security program and       In FY 2013, the OIG plans to evaluate
        practices to determine their effectiveness.     policies and procedures for case selection
        The evaluation is performed by the Inspector    and management with the intent of
        General or by an independent external           identifying and recommending opportunities
        auditor.                                        to further improve the efficiency and
                                                        effectiveness of FTC programs.
        To assist us in conducting this review, we
        hire an independent consultant to perform
        this work. The OIG acts as the COR and
        performs oversight during the execution of
        this contract. The review includes evaluating
        the adequacy of the FTC’s information
        security program and practices for its major
        systems. This year, the review will focus on
        the agency’s contract management, capital
        planning for security, and risk management
        being implemented through the new IT
        governance boards established in FY 2011.




                                    SEMIANNUAL REPORT TO CONGRESS ‐ 5
 




                                                        In addition to the complaints above, the OIG
                                                        receives complaints from individuals who
                                                        reported impersonations of FTC staff. These
                                                        complaints are part of an ongoing multi-
                                                        agency investigation addressing lottery and
                                                        sweepstakes scams.

                                                        The following is a summary of the OIG's
                                                        investigative activities for the six-month
    INVESTIGATIVE ACTIVITIES
                                                        period ending September 30, 2012:
    The Inspector General is authorized by the                Cases pending as of 3/31/12    5
    IG Act to receive and investigate allegations             PLUS: New cases                4
    of employee misconduct as well as fraud,                  LESS: Cases closed             3
    waste and abuse occurring within FTC                      Cases pending as of 9/30/12    6
    programs and operations. Matters of possible
    wrongdoing are referred to the OIG in the           Investigations Closed
    form of allegations or complaints from a
    variety of sources, including FTC employees,        During this reporting period, the OIG closed
    other government agencies and the general           three investigations. The first investigation
    public. Reported incidents of possible fraud,       was opened and closed during this reporting
    waste and abuse can give rise to                    period. We opened an investigation into
    administrative, civil or criminal investigations.   allegations that an agency employee violated
                                                        the criminal financial conflict of interest
    Investigative Summary                               statute 18 U.S.C. § 208. We investigated the
                                                        allegation and referred the matter to the
    During this reporting period, the OIG               Department of Justice (DOJ).
    received 60 consumer complaints and other
    inquiries and reports of possible wrongdoing.       The second investigation, also opened and
    Of the 60 complaints, 31 involved issues that       closed during this reporting period, involved
    fall under the jurisdiction of FTC program          an allegation that a child was injured in the
    components (identity theft, credit repair, etc.)    agency’s day care center and that no report or
    and not the OIG. These matters were                 internal investigation was conducted
    referred to the appropriate FTC component           regarding the alleged incident.           Our
    for disposition.                                    investigation confirmed that a toddler was
                                                        accidentally injured and that proper protocols
    Of the remaining complaints, the OIG                were not followed. Prior to OIG investigative
    opened 4 new investigations and 10                  activity, however, internal disciplinary
    complaints were closed with no further OIG          measures were taken against two day care
    action. One complaint to the OIG was                staff.
    referred to another federal or state agency
    with appropriate jurisdiction. We also assisted     We reported the matter to agency
    two other OIGs in ongoing investigative             management and the contractor’s risk
    activities. The remaining complaints resulted       management official for further action as
    in 14 preliminary inquiries, half of which have     deemed appropriate.
    been closed while seven are still ongoing.




                                       6 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    The third investigation closed during this        U.S. Secret Service, U.S. Marshals Service,
    reporting period involved an allegation that a    Internal Revenue Service, U.S. Capitol Police,
    Commissioner violated 18 USC § 208. We            as well as state and local law enforcement
    investigated the allegation and substantiated     agencies.
    the technical violation of the criminal
    financial conflict of interest statute. We        Activities within the Inspector General
    referred the matter to DOJ’s Office of Public     Community
    Integrity and reported this referral in our
    March 2007 semiannual report to Congress          The FTC IG is an active participant in the
    (Report Number 36).           We kept the         Council of the Inspectors General on
    investigation open during the pendency of         Integrity and Efficiency (CIGIE), a council of
    DOJ’s review (in the event further                inspectors general that promotes
    investigative efforts would be required). We      collaboration on integrity, economy, and
    sought and obtained a status update from          efficiency issues that transcend individual
    DOJ during the current reporting period.          agencies. The IG is a member of the CIGIE
    DOJ advised that it declined to prosecute.        Audit Committee. The IG also participates in
                                                      periodic meetings designed to address issues
    Matters Referred for Prosecution                  common to smaller OIGs.

    During the current reporting period, the OIG      Our IG Counsel participates regularly in the
    referred one matter to DOJ for consideration      monthly meeting of the Council of Counsels
    of potential criminal prosecution. This matter    to Inspectors General (CCIG), as well as
    is described in the preceding section.            contributes to the legal discourse within that
                                                      Council on matters that are germane to the
    We also assisted DOJ and the agency’s Office      entire IG community.
    of General Counsel in defending a claim filed
    against the FTC by a vendor alleging              Our Lead Investigator is actively participating
    nonpayment of an outstanding balance. The         in two OIG-community working groups that
    amount is in dispute. This federal claims         are redesigning training programs for
    court litigation derives from the misuse of a     investigators engaged in undercover
    Government purchase card by the agency’s          operations and for advanced interviewing
    former supply clerk, currently incarcerated for   techniques. The training programs are
    his misuse of the Government purchase card        available through the Inspector General
    (resulting in theft of Government property).      Criminal Investigator Academy in
                                                      conjunction with the Federal Law
                                                      Enforcement Training Center.
    OTHER ACTIVITIES
                                                      Our Lead Investigator also participates in the
    Liaison with Other Agencies                       Metro Area Fraud Task Force headed by the
                                                      Secret Service. This task force is made up of
    In conducting criminal investigations, the        law enforcement professionals in the
    OIG has sought assistance from, and worked        Washington, DC metro area who work
    jointly with other law enforcement agencies       together to identify suspects and solve
    including Department of Homeland Security,        various crimes.
    Federal Protective Service, United States
    Postal Service, Federal Bureau of
    Investigation, U.S. Postal Inspection Service,




                                  SEMIANNUAL REPORT TO CONGRESS ‐ 7
 




    In addition, our Lead Investigator is actively   Access to Information
    participating on a DOJ led multi-agency task
    force addressing crimes related to lottery       The IG is to be provided with ready access
    and sweepstakes scams targeting the elderly.     to all agency records, information, or
    The task force is actively investigating these   assistance when conducting an investigation
    crimes and moving toward prosecution of          or audit. Section 6(b)(2) of the IG Act
    those found responsible. During this             requires the IG to report to the agency head,
    reporting period, three individual defendants    without delay, if the IG believes that access
    were sentenced and ordered to pay                to required information, records or
    restitution and forfeit assets. The sentences    assistance has been unreasonably refused, or
    ranged from 8 months to 84 months. The           otherwise has not been provided. A
    restitution ordered ranged from $43,000 to       summary of each report submitted to the
    $1 million, in addition to forfeiture orders     agency head in compliance with Section 6(b)
    ranging from $270,000 to $950,000.               (2) must be provided in the semiannual
                                                     report in accordance with Section 5(a)(5) of
    This task force receives consumer                the Act. During this reporting period, the
    complaints from many sources, including          OIG did not encounter a problem in
    Lloyds of London, the Department of the          obtaining assistance or access to agency
    Treasury, the FTC Consumer Response              records.
    Center, the general public and other sources.
                                                     Review of Legislation
    We are participating in this task force
    because the fraudsters often identify            Section 4(a)(2) of the IG Act authorizes the
    themselves as employees of the FTC. The          IG to review and comment on proposed
    OIG has posted a scam alert on the OIG           legislation or regulations relating to the
    website at http://www.ftc.gov/oig.               agency or, upon request, affecting the
                                                     operations of the OIG. During this
                                                     reporting period, the OIG reviewed no
    Significant Management Decisions                 legislation.

    Section 5(a)(12) of the Inspector General
    Act requires that if the IG disagrees with
    any significant management decision, such
    disagreement must be reported in the
    semiannual report to Congress. Further,
    Section 5(a)(11) of the Act requires that any
    decision by management to change its
    response to a significant resolved audit
    finding must also be disclosed in the
    semiannual report. For this reporting period
    there were no significant final management
    decisions made with which the OIG
    disagreed, and management did not revise
    any earlier decisions on OIG audit
    recommendations.




                                      8 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    Appendix: Peer Review Activity

    Section 989C of the Dodd-Frank Act                The report’s accompanying letter of
    contains additional semiannual reporting          comment contained two recommendations
    requirements pertaining to peer review            that, while not affecting the overall opinion,
    reports. Federal Inspectors General are           were designed to further strengthen the
    required to engage in peer review processes       system of quality control in the FTC OIG
    related to both their audit and investigative     audit organization. We agreed with the
    operations. In keeping with Section 989C,         findings and recommendations and have
    the FTC OIG is reporting the following            initiated corrective actions. The system
    information related to its peer review            review report is posted on our Web site at
    activities. These activities cover our role as    http://www.ftc.gov/oig.
    both the reviewed and the reviewing OIG
    and relate to both audit and investigative peer   Investigative Peer Reviews
    reviews.
                                                      OIGs with statutory law enforcement
    Audit Peer Reviews                                authority pursuant to Section 6(e) of the
                                                      Inspector General Act are subject to a peer
    On a 3-year cycle, peer reviews are               review no less than once every three years.
    conducted of an OIG audit organization’s          The FTC OIG does not have statutory law
    system of quality control in accordance with      enforcement authority. Therefore, our
    the CIGIE Guide for Conducting External           investigative organization is not required to
    Peer Reviews of the Audit Organizations of        have a peer review. However, the FTC OIG
    Federal Offices of Inspector General. These       voluntarily participates in the peer review
    guidelines are based on requirements in the       process.
    Government Auditing Standards. Federal audit
    organizations can receive a rating of pass,       While no peer review was conducted during
    pass with deficiencies, or fail.                  this reporting period, the FTC OIG
                                                      investigative operation was the subject of a
    The FTC OIG was the subject of a peer             peer review conducted by the Federal
    review of its audit organization during the       Election Commission (FEC) OIG earlier this
    current period. The U.S. Election Assistance      year. FEC issued its final report to us in
    Commission OIG conducted the review and           March 2012, which opined that our system of
    issued its system review report on September      internal safeguards and management
    7, 2012. In the U.S. Election Assistance          procedures was in compliance with the
    Commission OIG’s opinion, the system of           quality standards for investigations.
    quality control for our audit organization in
    effect for the year ended March 31, 2012, had     No external peer reviews of another Federal
    been suitably designed and complied with to       organization were conducted by the FTC
    provide our office with reasonable assurance      OIG during this semiannual reporting
    of performing and reporting in conformity         period. 
    with applicable professional standards in all
    material respects. We received a peer review       
    rating of pass.




                                SEMIANNUAL REPORT TO CONGRESS ‐ 9
 




        TABLE 1: REPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE
     
        ACTION HAS NOT BEEN COMPLETED
      Section 5(a)(3) of the Inspector General Act requires an identification of each significant
      recommendation described in previous semiannual reports for which corrective action has not
      been completed. Table 1 below shows the corrective actions management has agreed to
      implement but has not completed for recommendations that are open 180 days or more.
     
      The information in this table is based on (1) information supplied by the FTC’s Financial
      Management Office (FMO), which administers management’s audit resolution activities and
      (2) the OIG’s determination of closed recommendations. Recommendations are closed when
      (a) FMO notifies the OIG that corrective actions are complete or (b) in the case of
      recommendations that the OIG determines to be particularly significant, after the OIG
      confirms that corrective actions have been completed and are responsive.
     
          Report No/Date/ Title   Significant               Brief Summary of Planned Corrective Actions
                                  Recommendation
     
        AR 09-001A                Reporting Function in     Management recognizes there are ongoing
                                  Oracle Needs              challenges in this area. One constraint the FMO is
        February 2009             Improvement               facing is the inability of Oracle Federal Financials
        Financial Statement                                 version R12 to produce an open invoice listing (aka
        Management Letter                                   Accounts Payable Trial Balance). The service
        FY 2008                                             provider, National Business Center (NBC), is
                                                            working with Oracle to remedy this. The FMO
                                                            continues to work with NBC to resolve reporting
                                                            issues. This recommendation does not rise to the
                                                            level of a significant financial control weakness.




        AR 10-001A                Close out Procedures on   Management will continue to utilize the new
                                  Contracts Need            automated system’s tools and process that were put
        May 2010                  Improvement               in place in June 2011. The FMO will continue to
        Financial Statement                                 emphasize (as part of COR training) the
        Management Letter                                   importance of timely action when deobligation of
        FY 2009                                             funding is appropriate. Management considers this
                                                            item closed. The OIG will validate Management’s
                                                            corrective actions during the financial statement
                                                            audit for FY 2012. This recommendation does not
                                                            rise to the level of a significant financial control
                                                            weakness.




                                    10 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    TABLE 1: (CONTINUED) REPORTS WITH RECOMMENDATIONS ON WHICH
    CORRECTIVE ACTION HAS NOT BEEN COMPLETED

    Report No/Date/ Title Significant            Brief Summary of Planned Corrective Actions
                          Recommendation
    AR 11-001A             Contract Files Lack   Management will continue to follow the Standard
                           Documentation         Operating Procedure (SOP) that was put in place in
    April 2011                                   August 2011. Management considers this item closed. The
                                                 OIG will validate Management’s corrective actions during
    Financial Statement                          the financial statement audit for FY 2012.            This
    Management Letter FY                         recommendation does not rise to the level of a significant
    2010                                         financial control weakness.




                           Fraud Risk            Management has developed, and will complete a fraud risk
                           Assessment Can        assessment by September 30, 2012. Documentation
                           Enhance FMFIA         supporting the assessment will be available for review. The
                                                 OIG will validate Management’s corrective actions during
                                                 the financial statement audit for FY 2012.             This
                                                 recommendation does not rise to the level of a significant
                                                 financial control weakness.




                                     SEMIANNUAL REPORT TO CONGRESS ‐ 11
 




        TABLE 1 (CONTINUED): REPORTS WITH RECOMMENDATIONS ON WHICH
        CORRECTIVE ACTION HAS NOT BEEN COMPLETED
     Report No/Date/Title   Significant                 Brief Summary of Planned Corrective Actions
                            Recommendations


    AR 11-003               Update the Administrative   The Chief Acquisition Officer updated Chapter 2,
                            Manual with Current FTC     Section 310 of the FTC Administrative Manual to reflect
    January 2011            Policies on Training of     current purchase card policies and procedures.
                            both Card Holders and       Management considers this item closed. The OIG will
    Follow-up Review of     Approving Officials         validate Management’s corrective actions when OMB
    FTC Purchase Card                                   issues implementing guidance in FY 2013 as prescribed
                                                        by the Government Charge Card Abuse Prevention Act
                                                        of 2012.




    AR 11-004               Evaluate and Install        The warehouse will receive an upgraded computer and a
                            Inventory Software          WASP software update by the end of the fiscal year,
    April 2011                                          which will enhance the agency’s controls over the goods
                                                        received and processed through the warehouse. The
    Audit of the FTC                                    Office of Executive Director has plans to install a
    Warehouse                                           comprehensive agency-wide asset management system in
                                                        FY 2013, when the Office of the Chief Information
                                                        Officer fully implements the Remedy software
                                                        application.




    AR 12-002              Bring FTC security and       Management concurred with the recommendations and
                           privacy programs current     is either in the process of implementing or has
    December 2011          with OMB and NIST            implemented actions to address the recommendations.
                           guidance.         Twelve     The OIG will validate Management’s corrective actions
    Independent Assessment recommendations for          during the FISMA assessment for FY 2012.
    of the FTC             improvement in the areas
    Implementation of      of risk management,
    FISMA for FY 2011      capital planning, and the
                           information security
                           continuous monitoring
                           program.




                                       12 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    TABLE 2: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS



                                                                                Dollar Value


                                                           Number       Questioned     Unsupported
                                                                          Costs           Costs


    A.   For which no management decision has been             0            0                  0
         made by the commencement of the reporting
         period


    B.   Which were issued during the reporting period         0            0                  0



         Subtotals (A+B)                                       0            0                  0



    C.   For which a management decision was made              0            0                  0
         during the reporting period


         (i) dollar value of the disallowed costs              0            0                  0



         (ii) dollar value of the cost not disallowed          0            0                  0



    D.   For which no management decision was made             0            0                  0
         by the end of the reporting period



    E.   Reports for which no management decision was          0            0                  0
         made within six months of issuance




                                       SEMIANNUAL REPORT TO CONGRESS ‐ 13
 

     



            TABLE 3: INSPECTOR GENERAL ISSUED REPORTS WITH                                           
            RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE                                               

                                                                                                     
                                                                                                          

     
                                                                                 Number   Dollar Value
     
         

     
            A. For which no management decision has been made by the               0           0
               commencement of the reporting period
     
         

            B Which were issued during this reporting period                       0           0
     
            C. For which a management decision was made during the reporting       0           0
               period

     
               (i) dollar value of recommendations that were agreed to by          0           0
               management
         

               - based on proposed management actions                              0           0

               - based on proposed legislative action                              0           0

               (ii) dollar value of recommendations that were not agreed to by     0           0
               management


            D. For which no management decision has been made by the end of        0           0
               the reporting period


            E. Reports for which no management decision was made within six        0           0
               months of issuance




                                           14 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    TABLE 4: SUMMARY OF INSPECTOR GENERAL REPORTING
    REQUIREMENTS



         IG ACT
                         Reporting Requirement                                              Page(s)
        Reference

      Section 4(a)(2)    Review of legislation and regulations                                8


      Section 5(a)(l)    Significant problems, abuses and deficiencies                        3-6


                         Recommendations with respect to significant problems, abuses
      Section 5(a)(2)                                                                         3-6
                         and deficiencies

                         Prior significant recommendations on which corrective actions
      Section 5(a)(3)                                                                        10-12
                         have not been made

      Section 5(a)(4)    Matters referred to prosecutive authorities                          7

      Section 5(a)(5)    Summary of instances where information was refused                  none


                         List of audit reports by subject matter, showing dollar value of
      Section 5(a)(6)                                                                        none
                         questioned costs and funds put to better use

      Section 5(a)(7)    Summary of each particularly significant report                      4

                         Statistical tables showing number of reports and dollar value of
      Section 5(a)(8)                                                                         13
                         questioned costs


                         Statistical tables showing number of reports and dollar value of
      Section 5(a)(9)                                                                         14
                         recommendations that funds be put to better use


                       Summary of each audit issued before this reporting period for
      Section 5(a)(10) which no management decision was made by the end of the               none
                       reporting period

      Section 5(a)(11) Significant revised management decisions                              none

                         Significant management decisions with which the inspector
      Section 5(a)(12)                                                                       none
                         general disagrees




                                   SEMIANNUAL REPORT TO CONGRESS ‐ 15
 
        CONTACTING THE OFFICE OF INSPECTOR GENERAL


     


             HELP PROMOTE INTEGRITY, ECONOMY AND EFFICIENCY


         REPORT SUSPECTED FRAUD, WASTE, ABUSE OR MISMANAGEMENT


                    COMPLAINT MAY BE MADE ANONYMOUSLY



                          OFFICE OF INSPECTOR GENERAL
                       600 PENNSYLVANIA AVENUE, NW NJ-1110
                             WASHINGTON, D.C. 20580


                              HOTLINE: (202) 326-2800
                                 FAX: (202) 326-2034
                               EMAIL: OIG@FTC.GOV




             ANY INFORMATION YOU PROVIDE WILL BE HELD IN CONFIDENCE.
        HOWEVER, PROVIDING YOUR NAME AND MEANS OF COMMUNICATING WITH YOU
                     MAY ENHANCE OUR ABILITY TO INVESTIGATE.




                             16 ‐ SEMIANNUAL REPORT TO CONGRESS
 




    1 
